BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Sunil Dea v. People Of The State Of
California, were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 25th day of November, 2019:
Valerie Tanney, Esq.
Office of the District Attorney
330 W. Broadway, Suite 750
San Diego, CA 92101-3833
(619) 515-8584
Valerie.Tanney@sdcda.org

Attorney for Respondents
People of the State of California
Christopher Greinke, Esq
Title Resources
450 Exchange, Suite 100
Irvine, CA 92602-5002
(856) 914-2629
chris. greinke@titleresource s. com

Co-Counsel for Appellant
Sunil Dea

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Yolanda Lider [1 courtesy copy, U.S. Mail]
CDCR No. WF9803
Custody to Community Transitional
Reentry Program
11121 Bloomfield Avenue
Santa Fe Springs, CA 90670

Defendant, In Pro Se
Hon. Howard H. Shore
[1 courtesy copy]
San Diego Superior Court
Central Courthouse, 21st Floor
1100 Union Street
San Diego, CA 92101

Trial Judge
Court of Appeal of the State of California [1 courtesy
copy]
Fourth Appellate District Division One
750 B Street, Suite 300
San Diego, CA 92101

Appellate Court
Supreme Court of California
[1 courtesy copy]
350 McAllister Street, Room 1295,
San Francisco, CA 94102-4797

Supreme Court of California

Ryan C. Squire
Counsel of Record
Zi C. Lin
Robert Garrett
Jennifer R. Slater
GARRETT & TULLY, P. C.
225 S. Lake Ave., Suite 1400
Pasadena, CA 91101
(626) 577-9500
rsq uire@garrett-tully.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 25, 2019.

Julie A. Kershn t
Becker Gallagher
g 1 Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~t,,vbWJu__ d 6-,
>

cXJl 9

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

